<html>
<title> - CONNECTING COMMUNITIES: THE ROLE OF THE SURFACE TRANSPORTATION NETWORK IN MOVING PEOPLE AND FREIGHT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
CONNECTING COMMUNITIES: THE ROLE OF THE SURFACE TRANSPORTATION NETWORK 
                      IN MOVING PEOPLE AND FREIGHT

=======================================================================

                               (110-145)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
43-276 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A ARCURI, New York           JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY McNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
ZACHARY T. SPACE, Ohio               CANDICE S. MILLER, Michigan
BRUCE L. BRALEY, Iowa, Vice Chair    THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
ALBIO SIRES, New Jersey              ROBERT E. LATTA, Ohio
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bobrowski, Terry, Executive Director, East Tennessee Development 
  District.......................................................     4
Isaacs, Randy, Director, State Government Affairs for Greyhound 
  Lines, Inc.....................................................     4
Limehouse, Jr., Hon. H.B., Secretary, South Carolina Department 
  of Transportation..............................................     4
Lynch, Hon. Jim, Director and CEO, Montana Department of 
  Transportation.................................................     4
McDonald, William, Executive Director, Medical Motor Service.....     4
Pangborn, Mark, General Manager, Lane Transit District...........     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    33
Costello, Hon. Jerry F., of Illinois.............................    34
Cummings, Hon. Elijah E., of Maryland............................    36
Mitchell, Hon. Harry E., of Arizona..............................    41
Oberstar, Hon. James L., of Minnesota............................    42
Richardson, Hon. Laura A., of California.........................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bobrowski, Terry.................................................    50
Isaacs, Robert R.................................................    56
Limehouse, Jr., Hon. H.B.........................................    64
Lynch, Hon. Jim..................................................    68
McDonald, William P..............................................    81
Pangborn, Mark...................................................   102
[GRAPHIC] [TIFF OMITTED] T3276.001

[GRAPHIC] [TIFF OMITTED] T3276.002

[GRAPHIC] [TIFF OMITTED] T3276.003

[GRAPHIC] [TIFF OMITTED] T3276.004

[GRAPHIC] [TIFF OMITTED] T3276.005

[GRAPHIC] [TIFF OMITTED] T3276.006

[GRAPHIC] [TIFF OMITTED] T3276.007

[GRAPHIC] [TIFF OMITTED] T3276.008



CONNECTING COMMUNITIES: THE ROLE OF THE SURFACE TRANSPORTATION NETWORK 
                      IN MOVING PEOPLE AND FREIGHT

                              ----------                              


                         Tuesday, June 24, 2008

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Peter A. DeFazio 
[Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The hearing of the Highway Transit 
Subcommittee will come to order, Connecting Communities: The 
Role of Surface Transportation Network in Moving People and 
Freight. I for one am a big believer in continuing to have a 
national integrated system, one which serves all Americans, and 
I don't know where I am getting this weird feedback. Where did 
Jimmy go? He's wandering around with the control panel. I will 
keep going, hopefully--I am hearing a high pitched noise. And I 
believe that it is something that is often neglected in our 
discussion of Federal transportation policy and direction. We 
tend to focus a lot on a number of the huge choke points in the 
system as we should, as we look toward ways to better move 
people and freight. But we can't avoid the need to serve large 
areas of the country that are less populated, but vital in 
terms of their production of commodities or vital in terms of 
their recreation resources for all Americans or just vital 
places along the way as freight and people make their way 
across the country.
    Representing a very large district takes me about 7-1/2 
hours to drive from the northeast corner to the southwest 
corner, I am perhaps a little more sensitive to this than some 
of my colleagues who can perhaps walk across their district in 
a heck of a lot less time that it takes me to drive across 
mine. But I believe it will be key component of the 
reauthorization, and I am pleased to have this panel here today 
to contribute their thoughts on how we can better address these 
concerns. With that, I turn to the Ranking Member, Mr. Duncan 
from Tennessee.
    Mr. Duncan. Well, thank you, Mr. Chairman. First of all, I 
want to welcome all of the witnesses, but especially Mr. Terry 
Bobrowski, who is the very respected executive director of the 
East Tennessee Development District. I tell people that I have 
a little over 700,000 bosses, and he is one of my bosses, and 
especially he will understand that when I say this, I have told 
people here in Washington that the colors orange and white are 
almost more patriotic in my district than red, white and blue.
    At about 5 to 11:00 or some time around there I have to 
leave, we have the national champion Tennessee Lady Vols coming 
up today, in fact, already here to go to the White House. And I 
am participating in some events to honor the Lady Vols shortly. 
But I want to thank Chairman DeFazio for holding what I think 
is a very important hearing, and all of the witnesses for 
coming to participate. Our surface transportation network 
obviously is very important to the total economic health of our 
Nation. As we prepare to reauthorize the surface transportation 
programs our diverse communities urban and rural and suburban 
will present different sets of challenges that must be met in 
order to keep up with global competition.
    A lot of people are shocked by this in my area because my 
area is such an area of tremendous growth, but two-thirds of 
the counties in the U.S. are losing population. I am especially 
concerned if we don't do everything possible to hold down, or 
at least hold steady the price of gasoline, we are going to put 
the final nail in the coffin in many of these small towns and 
rural areas, because those people on average generally have to 
drive further distances to go to work. Any new national or 
transportation policies we develop must retain the flexibility 
to address the needs of these very different sizes and types of 
communities.
    The growth and their pasture in freight traffic has raised 
several challenges for rural communities, including an increase 
in places of congestion. That is why I say I hope we don't end 
up forcing more and more people into the already overly 
crowded, overly congested metropolitan areas, but larger 
metropolitan areas do have access to policy and funding 
operations that are not available to some of our small towns 
and rural communities.
    For example, many of these less populated communities 
highway tolls and congestion pricing are not options for 
financing highway projects. I have said before that if I were 
to propose a toll road in east Tennessee, I would end up being 
one of the most unpopular people in my own district.
    As we prioritize our Federal transportation policy and 
funding, I hope we did not lose sight of the challenges facing 
rural communities and small Metropolitan areas. Our witness 
today represent a variety of non-urban areas across the 
country. I hope they will be able to share their perspective 
and help us better understand these challenges and what we need 
to emphasize as we proceed with the next highway 
reauthorization. Thank you very much, Mr. Chairman.
    Mr. DeFazio. Thank you. I understand that Mr. Coble has a 
brief statement. No, Mr. Brown--I am getting mixed up, sorry, 
then we will come back to you, Howard.
    Mr. Coble. Very well, thank you, Mr. Chairman.
    Mr. Brown. Thank you, Mr. Chairman and Ranking Member 
Duncan, for holding the hearing on this important role that our 
transportation system plays in connecting our nations 
communities. I would like to welcome all of the members of the 
panel, but particularly would like to welcome South Carolina 
Secretary of Transportation, Buck Limehouse, to the 
Subcommittee today. Buck is a dear friend and has been at the 
helm of the South Carolina Department of Transportation since 
2007. Before that, he was the SC DOT commissioner, chairman and 
executive director. He also served as a member of the State 
Transportation Infrastructure Bank Board, giving him an 
intimate knowledge of the connectivity needed of the State.
    Mr. Chairman, we have preeminent service transportation 
system in the world, largely because it connects every 
community in our country together. No point in the lower 48 
States is more than 30 miles from a paved highway. From 
insuring that freight from our Nation's ports be able to get to 
shopping centers in middle America to align folks who easily 
travel hundreds of miles away for vacation.
    Connectivity is where our surface transportation system is 
all about. Whenever we face significant challenges going into 
the future, and Secretary Limehouse speak to South Carolina's 
experience with these challenges. We face growing congestion 
that cost our Nation some $78 billion per year. Logistically 
speaking, congestion climbed for the fifth straight year in 
2007, hitting a new record high of 1.4 trillion. And high fuel 
costs would only see the numbers climb by the end of this year.
    Our Nation's population set to increase over 140 million 
over the next 50 years. And as much as that population growth 
is going to occur outside of the areas where the original 
interstate was planned around. Right now we have some 70 
urbanized areas with more than 50,000 people without a direct 
connection to the interstate. I talk often about the potential 
for I-73 to not just connect Myrtle Beach, which sees some 14 
million tourists a year to interstate system, but for the roads 
to connect entire areas of the country together for the first 
time. While Myrtle Beach has grown because of its location on 
the coast, who knows what other communities are along I-73 
ready and waiting to grow. That is why I think we need to 
dedicate ourselves to the next highway bill, to develop an 
interstate 2 program, to provide needed capacity expansion 
along corridors that connect that area missed during the first 
phase of the interstate system.
    Again, thank you, Mr. Chairman, for holding this hearing, 
and I look forward to the testimony of our witnesses today.
    Mr. DeFazio. Thank you. Then a brief statement, Mr. Coble.
    Mr. Coble. I will be very brief, Mr. Chairman. Mr. 
Chairman, I have noticed that you have one of your bosses from 
Oregon here, Mr. Duncan has two of his bosses from Tennessee, 
Mr. Brown has one boss from South Carolina. I feel slighted, 
none of my bosses are present. Mr. Chairman and gentlemen, I 
know of no domestic issue that is any more significantly 
important to us and to America than the role of surface 
transportation network in moving people and freight. And Mr. 
Chairman, I agree with the others, I appreciate your having 
called this hearing, I appreciate the witnesses being here. I 
think it will be a step to help prepare us as we consider 
reauthorizing the Federal surface transportation programs next 
year. And I yield back, Mr. Chairman.
    Mr. DeFazio. Well, Howard, I would reflect that the reason 
that we brought people here is we need help to represent our 
views, we know you don't need any to represent yours.
    Mr. Coble. So do I.
    Mr. DeFazio. If there are no further opening statements, we 
will proceed to witnesses.

   TESTIMONIES OF HON. JIM LYNCH, DIRECTOR AND CEO, MONTANA 
    DEPARTMENT OF TRANSPORTATION; HON. H.B. LIMEHOUSE JR., 
 SECRETARY, SOUTH CAROLINA DEPARTMENT OF TRANSPORTATION; MARK 
    PANGBORN, GENERAL MANAGER, LANE TRANSIT DISTRICT; TERRY 
   BOBROWSKI, EXECUTIVE DIRECTOR, EAST TENNESSEE DEVELOPMENT 
DISTRICT; RANDY ISAACS, DIRECTOR, STATE GOVERNMENT AFFAIRS FOR 
    GREYHOUND LINES, INC.; AND WILLIAM MCDONALD, EXECUTIVE 
                DIRECTOR, MEDICAL MOTOR SERVICE

    Mr. DeFazio. And the first witness will be the honorable 
Jim Lynch, director and CEO Montana Department of 
Transportation. Mr. Lynch.
    Mr. Lynch. Mr. Chairman, Members of the Subcommittee, I am 
Jim Lynch, the director of the Montana Department of 
Transportation. And I appear here today for my Department and 
four additional State DOTs, those of Idaho, North Dakota, South 
Dakota and Wyoming. We think it is terrific that this 
Subcommittee is holding a hearing on the benefits of a 
connected surface transportation network moving people and 
freight.
    The network of Federal aid highways plays a critical role 
in tying the nation together, and most of that network is in 
rural America. More specifically, Federal aid highways in our 
States provide many benefits to the Nation. First, our highways 
provide a bridge for through traffic benefiting citizens in 
areas of origin and destination. Movements between Chicago and 
Portland, for example, cross the rural west, benefiting 
citizens at both ends. These are benefits in terms of moving 
people, both people and goods, and it is not just a casual 
observation on our part. Federal Highway Administration data 
show that the percentage of truck traffic in our States that 
does not either originate or terminate within the State is 
above the national average.
    In my State, 62 percent of truck moves are through traffic. 
The national median for States is approximately 45 percent. So, 
trucking in our States is largely long haul, which serves the 
national interest. There are tourism benefits, Federal aid 
roads provide access to scenic wonders, like Yellowstone 
National Park and Mount Rushmore. These roads assist 
agricultural and resource industries as well. Federal aid roads 
not on the NHS also enable crops and resources to move to 
market. This can include forest products, which I understand is 
critical in your State, Mr. Chairman. These roads also help 
serve the Nation's ethanol production and energy extraction 
industries, which are located largely in rural areas. In my 
State, these roads also are helpful in servicing the new wind 
energy installations.
    Next, I would like to call the Subcommittee's attention to 
the map on the last page of my written testimony. As you can 
see, these are the five States that I am talking on behalf of 
here today. If the Federal aid system were limited to the NHS, 
areas in our States as big as entire northeastern States would 
have no Federal aid eligible roads. Connectivity truly would be 
lost. Also, because the Federal Aid System extends beyond the 
NHS States are able to make increased investment on rural 
routes, enhancing safety on those relatively high risk roads. 
There are also benefits from Federal investment in transit in 
rural States. Those investments help ensure personal mobility, 
especially for seniors and the disabled, connecting them to 
necessary services.
    Before closing, let me turn to funding issues. Our States 
face severe transportation infrastructure funding challenges. 
We can't provide all these benefits to the Nation without 
Federal funding leadership. We are geographically large. We 
have extensive highway networks and have low population 
densities. This means that we have very few people to support 
each lane mile of Federal aid highway. The national average is 
approximately 128 people per Federal lane mile. In my State, 
the number is 29, less than one-fourth the national average. In 
addition, citizens in our States make per capita contributions 
to the Highway Trust Fund above the national average. The 
national average contribution to the highway account of the 
Highway Trust Fund is $109 per person. Montana's per capita 
contribution is $156, 43 percent above the average.
    I also want to emphasize that with low population and 
traffic densities, tolls are not the answer for funding 
transportation needs in rural America. I'll say it again, tolls 
just won't work for us. A continued strong Federal funding role 
is appropriate to achieve the national benefits of a connected 
system including rural States like ours.
    In conclusion, Federal investment in transportation in 
rural States like ours provide important connectivity and other 
benefits. Accordingly, the upcoming authorization bill should 
provide strong funding in support of those rural investments. 
Thank you again for the opportunity to testify before you here 
today. I am available for questions.
    Mr. DeFazio. Thank you, Mr. Lynch.
    I would turn to the Honorable H.B. Limehouse, Jr., 
Secretary, South Carolina Department of Transportation. Mr. 
Limehouse.
    Mr. Limehouse. Thank you, Mr. Chairman. I am Buck 
Limehouse, Secretary of Transportation for the State of South 
Carolina. I very much appreciate the opportunity to speak to 
you and the Members of the Committee today on transportation 
issues of critical importance to the Nation.
    The reauthorization of our highway program, the role of 
surface transportation, including mass transit. I am here on 
behalf of the South Carolina Department of Transportation, but 
most of the items I bring before you of are national interest. 
We like you are concerned about rising fuel prices. Ironically 
the rise in petroleum price decreases our revenues and 
increases our costs. So we get hit on both ends.
    Fewer people travel with high gas prices which means less 
revenue from fuel sales. In South Carolina, our revenues from 
motor fuel taxes for the last 3 months have been below the 2007 
levels and we expect that trend to continue. We have put cuts 
in our administrative budget and we resulted in about 19 
million in savings at our agency. This money has already been 
added to our highway maintenance budgets. But these are far 
outweighed by the inflation that we have experienced in 
construction and materials.
    America is in the midst of historic transportation in our 
approach to this problem. On the brink of reauthorization we 
have an opportunity to nationally address the Highway Trust 
Fund Equity and Federal Highway and Transit programs and 
congestion mitigation while encouraging transportation 
partnerships.
    First and foremost, the Highway Trust Fund can no longer be 
solely tied to the gas tax, which is calculated as a tax on the 
number of gallons of gasoline purchased. This is a shrinking 
revenue source. It does not apply to highway users who drive 
alternative fuel vehicles. There must be other sources of 
revenue from the Highway Trust Fund and inflation must be built 
into a formula which takes into consideration the number of 
miles traveled on our highway system.
    Under the enactment of the Energy Independence and Security 
Act of 2007, automobile fuel economy standards will increase 40 
percent by 2020. And while we applaud the efforts of fuel 
efficient standards, the issue of reliance on motor fuel user 
fees is not going away and it must be addressed at the Federal 
level. These two issues go hand in glove with each other and 
they should be addressed simultaneously.
    As you have undoubtedly heard from people like me who 
represent so-called donor States, the equity of the Federal 
program is not equitable. The Highway Trust Fund is divided, as 
you know, into a highway account and a mass transit account. 
South Carolina has historically been a donor State. This means 
that we contribute more to the trust fund than we received back 
from highway and transit programs.
    We are also a donor State under the IFTA program which 
requires us to share diesel tax revenues with other States. The 
distribution formula now guarantees South Carolina a return for 
highways of $0.92 on the dollar and for transit $0.42 on the 
dollar.
    Among the 50 States, as Congressman Brown alluded to, we 
are 45th in geographic size, yet we own and maintain the fourth 
largest State highway system in the Nation. This simple fact 
has a tremendous influence on the State Department of 
Transportation's decision-making process. Population growth and 
economic growth are putting an increasing heavy burden on all 
modes of transportation. At the same time, we have to be 
conscious of using our resources wisely, protecting the 
environment that we all live in and managing the public's money 
well so that South Carolinians can get the best return for 
their tax dollars.
    Interstate 73 and the port of Charleston access road 
project are two projects that display the need for investments 
based on population and economic growth. Growth is occurring 
near the U.S. coast and we are no exception. The population 
growth in relation to infrastructure has exceeded all 
expectations. Interstate 73, which is a congressionally-
designated interstate, has a potential to substantially reduce 
congestion and provide an evacuation route from the coastline.
    It is my recommendation there have been no funding for 
these new interstates, and it is my recommendation that you 
consider establishing a program that will require a 50/50 match 
to ensure that the States and localities are serious about 
their projects.
    With the economic growth of the international port of 
Charleston, it helps the entire southeast region of the United 
States. But the Port of Charleston, like most of the Nation's 
seaports, has been established for centuries and is embedded in 
a densely populated urban area. The efficiency of our ports has 
been compromised with the characteristics of their surroundings 
which presents obstacles to linking these important freight 
gateways to national highway and rail systems.
    If we truly want to connect communities, we must come 
together and change the paradigm of transportation. We need to 
establish a new transportation vision for the next century that 
involves a Highway Trust Fund, equity and transportation and 
reducing congestion. Thank you for this opportunity. If there 
are any questions I would be glad to entertain them.
    Mr. DeFazio. Thank you, Mr. Limehouse.
    With that, I would turn to Mr. Mark Pangborn, he's the 
general manager, Lane Transit District in Oregon, a district 
that has pioneered the first I believe Small Starts, bus rapid 
transit project with partial fixed guide way systems. And my 
understanding is that you have reached the 20-year projection 
of ridership in 18 months.
    Mr. Pangborn. That is correct, in fact we passed it in 1 
year.
    Mr. DeFazio. Okay.
    Mr. Pangborn. And we are now growing at 20 percent beyond 
that.
    Mr. DeFazio. All right. Well, thank you. Go ahead with your 
prepared remarks.
    Mr. Pangborn. Thank you, Chairman DeFazio, Ranking Member 
Duncan and Members of the Committee. I am Mark Pangborn, and 
the general manager for the Lane Transit District. We believe 
the skyrocketing fuel prices, traffic congestion and concerns 
regarding global warming have changed the way Americans look at 
their transportation options. And the conditions are right for 
a significant shift in our attitudes and perspectives on 
transportation in the country. We know this is true for the 
Lane Transit district, which serves the communities of Eugene 
and Springfield and a metro area of about 250,000.
    We have a very high ridership. This last year, we will 
carry 11 million rides and we attribute our success to really 
three factors, one of them is innovation. We were the first 
system in the United States to be 100 percent lift equipped, 
and that was 5 years before ADA. We have bicycle racks on all 
our buses, fully loaded. We have a group pass program with over 
70,000 people who are members of that program and have a pass 
that they could use to ride the bus all the time. But our most 
interesting project is the bus rapid transit. I will talk about 
that in just a minute.
    The second reason is LTD offers a variety of services to 
connect people to jobs, appointments and social needs. We can't 
expect that a single type of service is going to work for all 
situations and for all people.
    And third and most importantly we have been fortunate to 
have a stable operational funding and strong Federal support. 
Virtually every major capital expenditure, from buses to 
facilities, to our bus rapid transit line has been funded in 
large part with Federal funds. This support has been critical 
to our success.
    Like other systems around the country, our ridership is 
increasing rapidly. While the ridership increase has put a 
strain on our system and overloads are a problem, our Federally 
supported investments in facilities and other infrastructure 
over the years has really prepared us for this growth. I would 
like to tell you a little bit about our efforts in the bus 
rapid transit because I believe it is an important new tool in 
connecting communities.
    LTD has been in the forefront of the development of this 
bus rapid transit concept. Our system, which we call EmX, is a 
full featured BRT that emulates light rail, with features such 
as exclusive transit ways, transit signal priority, improved 
stops and stations, unique vehicles and really a different 
image than a conventional bus.
    Our first EmX corridor connects downtown Eugene with 
downtown Springfield and opened for service in January 2007. It 
is difficult to overstate the interest and excitement that has 
been generated by the first EmX line. Ridership on this line 
increased immediately to the 20 years projections and now has 
exceeded that by 20 percent, as mentioned.
    If you look to the slides we have there, that is a great 
example of Federal investment and infrastructure. That is our 
station in downtown Eugene, it is the terminus, west terminus 
of EmX.
    Could I have the next slide? This is the a photo of the 
grand opening and a collection of photos. You can see, Chairman 
DeFazio, with FTA Administrator Simpson, myself and our board 
chair opening it up.
    Next photo. Here is a good example of what a BRT lane looks 
likes, it is two BRT vehicles passing in a corridor. You can 
see it really looks like a light rail, only it doesn't have the 
tracks. It just has the concrete ribbons for the buses to run 
on.
    Next. This is a photo of a typical BRT stop, again looking 
very much like light rail except for the tracks. There is 
something else that is not indicated and that is that we were 
able to build this entire system for $6 million a mile. That is 
about one-tenth the cost of a typical light rail system. So it 
really brings this into an affordable range for a number of 
communities. In response to the exceptional success of the 
first EmX line LTD is working actively to expand the system.
    The second EmX line is one of the first to use small starts 
funding programs that was created with SAFETEA-LU and the 
project is fully funded and we expect to open in 2010, and 
we're planning for the third line in west Eugene.
    Now while high capacity transit investments have been 
employed almost exclusively in large Metropolitan areas, LTD's 
experience with EmX demonstrates that high quality transit in 
communities the size of Eugene-Springfield, can have a 
significant positive impact on the economic growth and 
livability of the community. A relatively small investment can 
have a very positive multiplier effect on improving a 
community's connectivity options.
    With that in mind, we would propose six recommendations for 
the new service transportation bill: Increase the investment in 
our Nation's transportation system. The backlog and 
infrastructure for needs all modes is significant and must be 
addressed; reflect the changing transportation environment and 
concerns regarding global warming and peak oil by placing a 
greater emphasis on transit and other alternative 
transportation modes to meet our future transportation needs; 
streamline project delivery. It still takes too long and costs 
too much money for a project to go from concept to 
implementation; increase funding for FTA small start programs. 
As LTD has demonstrated, this program provides opportunities 
and medium size communities to implement cost effective 
systems; provide dedicated funding for bus replacement; and, 
finally, provide operational funding for existing ADA required 
paratransit services. Thank you.
    Mr. DeFazio. Thank you, Mr. Pangborn.
    They called for a procedural vote, we will try and move 
quickly through two more witnesses here, Mr. Bobrowski, 
executive director of the east Tennessee development district, 
Alcoa, Tennessee. Mr. Bobrowski.
    Mr. Bobrowski. Thank you, Mr. Chairman, good morning to 
yourself and Members of the Subcommittee. If you'll allow me, a 
special greeting to my Congressman, Congressman Duncan, the 
Ranking Member on the Committee.
    My name is Terry Bobrowski, I am the executive director of 
the East Tennessee Development District headquartered in Alcoa, 
Tennessee. I am also a member of the National Association of 
Development Organizations Board of Directors and chairman of 
NADO's transportation task force.
    I want to thank you for the opportunity to testify today on 
issues surrounding community connections, particularly in small 
Metropolitan rural regions. We submitted a detailed statement 
for the record, but I will limit my remarks to a few key 
points. First, the Nation as a whole has a vested interest in 
ensuring that the transportation networks in small towns in 
rural America are reliable, maintained and integrated into the 
larger national transportation system. As Congress works to 
reauthorize the SAFETEA-LU law, it is important that the 
Federal policy makers take into consideration the unique and 
pressing highway transit and safety needs of small metropolitan 
and rural America.
    The challenges and pressures facing America's 
infrastructure network are well documented. The U.S. population 
is expected to grow from 300 million today to 420 million by 
2050. Vehicle miles traveled are predicted more than doubled to 
7 trillion miles by 2055. Freight traffic growing from 15 
billion tons to 29 billion tons in 2035. And sadly, 42,000 
Americans die each year and 3 million more are injured on 
America's roadways, 60 percent of those fatalities taking place 
on 2-lane rural roads.
    While these demographic changes will almost certainly 
impact our major metropolitan hubs, they are already presenting 
new challenges in our Nation's smaller towns and rural 
communities. These include an aging population requiring new or 
expanded transportation options, seamless connections to global 
trade and commerce centers, and regular maintenance repair of 
aging roads and bridges.
    The lack of modern transportation assets remains a 
significant roadblock for long-term economic development and 
community competitiveness in far too many of our rural areas. 
In the eastern portion of Tennessee, we have witnessed 
firsthand the impact a viable and reliable transportation 
network can have. For example, the Appalachian Development 
Highway System, or ADHS, is focused on connecting previously 
isolated areas in the 13-State Appalachian region with the 
national transportation system and the results from the 
development of that highway system have been simply 
outstanding.
    Completing the ADHS by 2035 is projected to create 80,500 
jobs, 3.2 billion in wages and generate over 5 million--excuse 
me, 5 billion in increased economic activities. On a smaller 
scale in my home region, we have a challenge with maintaining a 
system that must serve a diverse variety of needs. We must be 
able to maintain a system to serve the Oak Ridge National 
Laboratory, which is one of the most advanced scientific 
research facilities in the world, by also paying attention to 
the small community of Briceville, which is located less than 
20 miles away from ORNL, very rural community, many homes are 
not even connected to a rural water system.
    Mr. Chairman, the direct involvement of rural local 
officials in the statewide planning process is also crucial to 
making transportation networks work more efficiently and 
effectively. As the transportation networks in rural and small 
Metropolitan regions have become increasingly complex, more and 
more States have tapped into the planning expertise and local 
official networks original development organizations like my 
own to help form and staff rural planning organizations. Nearly 
30 States, including Tennessee, have formed RPOs to help 
identify and rank transportation priorities on a regional basis 
for consideration by the respective States.
    In 2005, the Tennessee Department of Transportation created 
12 RPOs to serve rural areas not already served by the 11 
Metropolitan planning organizations. In the establishment of 
the RPO network in Tennessee represented a dramatic change from 
the previous method of establishing transportation priorities 
within our State. Instead of each city and county lobbying for 
their particular project at the State level, our rural cities 
and counties are now collaborating and cooperating to recommend 
a list of projects that have regional consensus instead of just 
local impact. Our RPOs work hand in hand with and are 
ultimately responsible to the State, that because of our links 
to local government, we are now better positioned to coordinate 
our State's transportation plans and programs with our regional 
and local economic development housing and land use priorities.
    We are becoming better equipped as a State to fully link 
and connect not only the transportation needs of our 
communities, but also our economic development environmental 
and land use needs.
    Finally, Mr. Chairman, as this panel develops financing 
alternatives beyond the Highway Trust Fund, the members of NATO 
encourage you to consider the unique economic conditions and 
financial capacity of areas outside of the major metropolitan 
regions. We encourage Congress and the administration to pursue 
and develop new financing models. However, we urge Federal 
policymakers to retain or strengthen existing funding resources 
that are proven to work in our small metropolitan and rural 
regions.
    Thank you, Mr. Chairman, for allowing me the opportunity to 
testify before you, and I am available for questions at the 
appropriate time.
    Mr. DeFazio. Thank you. We have 8 minutes 2 seconds. This 
is the first part of the day, so Mr. Isaacs, can you meet your 
5-minute time line?
    Mr. Isaacs. I believe I can.
    Mr. DeFazio. Go ahead.
    Mr. Isaacs. Thank you, Mr. Chairman, Mr. Duncan, Members of 
the Subcommittee. Greyhound and its network of independent 
interline partners, is perhaps the single most appropriate 
model for connecting communities nationwide. Properly operated 
inner city buses can provide revitalized feeder services from 
rural communities and urbanized areas and the Nation's 
transportation grid with relatively little investment.
    The infrastructure is in place, and unlike rail or air 
services, buses can go anywhere and provide service at a very 
low cost. Federal Government statistics shows that inner city 
buses are the most energy efficient and environmentally 
friendly mode transportation in America. Inner city busses can 
play an even more essential role in the surface transportation 
infrastructure. In SAFETEA-LU, Congress started to focus on the 
important role of inner city bus service by strengthening the 
FTA bus and bus facilities program, the rural and small urban 
programs and the over the road bus accessibility program.
    When used as intended by statute and regulations, these 
programs support the viability of nationwide inner city bus 
service and contribute to enhance modal connectivity. These 
programs are starting to generate positive results and should 
be retained and strengthened in the next reauthorization.
    The rural inner city bus network has been in serious 
decline in recent decades. However, we still serve far more 
communities than any other form of inner city transportation. 
The private automobile demographic shifts that were mentioned a 
few moments ago a serious imbalance in Federal support in the 
inner city bus service. And the emergence of cultural and low 
cost bus services have all contributed.
    To remain viable, Greyhound has had to focus its networks 
predominantly on urban to urban markets while trying to 
maintain as much as its rural feeder network as possible. We 
are actively engaged with State DOTs to reinstate and expand 
service to affected communities nationwide.
    SAFETEA-LU programs and requirements have helped improve 
rural connectivity. The 5311(f) program has now created as a 
result of SAFETEA-LU, a more meaningful dialogue with States 
and the inner city bus industry. It has created opportunities 
for intermodal transportation centers nationwide. Greyhound is 
now a tenant in 100 of those facilities with a least another 
100 in various stages of planning and development where we are 
able to connect with local modes of transportation.
    The SAFETEA-LU and subsequent to SAFETEA-LU with FTA we 
created a pilot local match program using the unsubsidized 
inner city bus service within a State as an in kind match for 
services which enables the feeder projects established by those 
services to be a lot more stable and provide service on a 
longer term basis. One of those examples is a near feeder 
service scheduled to connect Climate Falls, Oregon Medford, 
Oregon and Smith River, California in the next few months. The 
project will reinstate service loss during the Greyhound 
restructuring and connect Climate Falls and Smith River 
existing Greyhound service in Medford.
    It is to be funded by an FTA 5311(f) grant. And Greyhound 
will provide the local in kind match. An important feature of 
this and other services is that while they make connections for 
the rural inner city bus customers they also connect people 
with essential regional medical, social service and employment 
centers. On another front and one on which we have been a bit 
unsuccessful in prior reauthorizations is a proposal to create 
an essential bus service program that could supplement and 
expand EAS type service in rural communities to primary 
airports. An example is Mason City, Iowa to Minneapolis, St. 
Paul. Mason City has EAS service operated into Minneapolis 
operated by Mesaba Airlines with three schedules a day, and a 
33-passenger Saab 340. Jefferson Lines motor coach operator 
based in Minneapolis, also operates three schedules a day 
between Mason City and Minneapolis airports and 55-passenger 
motor coach. The flight time is 45 minutes and non stop 
Jefferson service would take approximately 2 hours.
    Jefferson's fare is $80 and Mesaba charges $900. And the 
2007 EAS subsidy to Mesaba was over a million dollars or about 
$87 per passenger. There is a limited market for $900, 45 
minutes flight. On the other hand, a much smaller subsidy could 
produce multiple affordable and convenient bus trips in a 
similar market.
    Greyhound and its interlying partners play an essential 
role in connecting rural communities given our flexibility low 
cost energy efficiency and environmental friendliness, we can 
play an even larger role. We have several recommendations, one 
is make the FTA 5311(f) pilot in kind match program permanent, 
and expand its application to enhance implementation of 
statewide inner city bus feeder services. Require FTA to 
withhold or deny funding to any State that fails to comply with 
the planning and consultation requirements, create an essential 
bus service program, support passenger information 
transportation systems, reauthorize the over the road bus 
accessibility program. We look forward to working with Congress 
in that regard, the cost is minimal and the payback is 
significant, thank you.
    Mr. DeFazio. Thank you for being so prompt. The Committee 
stands in recess.
    The Committee will come back to order.
    We left off with Mr. Isaac's testimony, and we are now 
moving to the last witness, Mr. William P. McDonald, Executive 
Director of Medical Motor Service of Rochester, New York.
    Mr. McDonald.
    Mr. McDonald. Yes. Good morning, Mr. Chairman and Members 
of the Subcommittee. I am Bill McDonald, and I am Executive 
Director of Medical Motor Service, which is a not-for-profit 
agency located in upstate New York in a nine-county region 
which consists of rural, suburban and urban communities.
    It is a privilege to be here today--thank you very much--to 
speak to you about some of the issues that are facing an 
organization such as Medical Motor Service and other not-for-
profit agencies as we try to coordinate and provide a wide 
range of transportation services, primarily to older persons 
and persons with disabilities and special mobility needs.
    Medical Motor Service is probably one of the oldest 
organizations of transportation in this country. We began in 
1919 during the influenza epidemic and started as a volunteer 
group to take patients to hospitals to address critical medical 
needs at the time.
    We evolved over time, and during World War II, we actually 
stopped using volunteers because of shortages of fuel and the 
high cost of gas and gas rationing, almost facing a situation 
very similar to today in terms of the difficulty of fuel.
    We also expanded our scope of service to meet the needs of 
not just medical, but also children to special education 
services, adults to mental health services, chemotherapy, 
dialysis, radiation treatment. We do a lot of work with older 
people to take them to adult daycare centers, for shopping 
access.
    Our role is really to complement the fixed route 
paratransit services in the communities that we serve. We work 
in conjunction with them, and the way that we complement them 
is by providing a service which is more specialized, has 
different hours of service of broader geographical reach, and, 
therefore, assist people that can't take the traditional fixed-
route service.
    As a not-for-profit agency, coordination is really the name 
of the game for us. People don't ride our buses because they 
like to going on a bus; they ride them because they need to get 
to some community services.
    We coordinate in a number of ways. We work with different 
faith-based groups, operating their vehicles for them in 
exchange, bartering some trips. We work with other not-for-
profit agencies that turn over their 5310 vehicles to us to 
operate, and we also have the more traditional contracts for 
service.
    The key issues that are facing us as we endeavor to 
coordinate is a lot of what you have heard today, but takes on 
a special meaning for us. One is fuel. In the last year, our 
fuel costs have increased 30 percent. Where they comprised 6 
percent of our budget a year ago, they are now 12 percent of 
our budget. Meanwhile, our ridership has increased 14 percent, 
and it is becoming more and more difficult.
    We could take the increased cost of fuel and provide fully 
paid health insurance to 100 of our drivers each month or buy 
two vehicles straight up to serve more and more people that are 
relying on our programs.
    Meanwhile, I did want to mention that we--as a not-for-
profit, while we are exempt from sales tax, we are still 
required to pay the State and Federal fuel tax and excise 
taxes.
    Unlike some of our colleagues that work transporting school 
children who are exempt from those taxes, those that transport 
adults are not exempt. In some ways, we see that as an equity 
issue in terms of what we could use that money to provide for 
service.
    I also wanted to mention that while it is not under the 
purview of this Committee, the Medicaid program is very 
important for many transportation systems throughout the 
country and provides some infrastructure as well. CMS is 
currently proposing some rules that could limit that benefit to 
low-income, medically challenged people and could actually 
affect the ability of other transit agencies to provide the 
service.
    We are very appreciative of the work of SAFETEA-LU, the 
opportunity it has provided in funding for not-for-profits, 
particularly through 5310, the ability to flex money. We 
encourage the continuation of that and also for the initiatives 
that call for coordination of services between human services 
organizations such as ours and other organizations in the 
community.
    Thank you very much, and we look forward to another 100 
years of service in upstate New York.
    Mr. DeFazio. Thank you for your interesting testimony and 
history.
    I am looking for my question sheet, which I had before I 
left and now it has disappeared. And I had written some notes 
on it which are not on this one.
    Well, let's start with sort of a couple of general 
questions. We had several witnesses talk about the enhanced 
funding. That is obviously something that is going to be very 
much an issue as we go into reauthorization.
    I mean, pretty much everyone except Mary Peters would say, 
and those who are her acolytes or she, whoever she is an 
acolyte of, would say that there is not adequate Federal 
investment in the national transportation system, and we need 
to enhance that. Our first one or two witnesses pointed out 
problems with the potential drop-off in vehicle miles traveled 
or increase in fuel efficiency in terms of relying on the gas 
tax.
    I mean, we can deal with the fuel efficiency issue by 
having an index that would keep the tax stable according to 
average fleet fuel economy. Obviously, the drop in miles 
traveled is something that will affect the trust fund further.
    I am curious what ideas people would have for the short 
term. We have held hearings on this, and most witnesses seem to 
feel that moving toward a mileage parameter such as has been 
modeled in Oregon is desirable, but probably at least one, 
maybe two, authorizations out.
    Does anybody have any reflections on what they might do 
more immediately or would do in terms of reauthorization to get 
more funding?
    Mr. Lynch. Mr. Chairman, would you like me to try that 
first?
    Mr. DeFazio. Go ahead.
    Mr. Lynch. Well, I think, Mr. Chairman, the point of your 
question is immediately. When you are looking at a number of 
different funding opportunities and scenarios to fund the 
Highway Trust Fund, there is really only one_immediately_and 
that is a General Fund infusion to the Highway Trust Fund.
    I think closely following the next step of being immediate 
might be looking at the fund itself, and looking at some of the 
exemptions that have been allowed in that trust fund--and not 
take away the exemptions, because I think some of the 
exemptions are in fact important; but let's recognize that they 
may be properly a General Fund obligation, that today are a 
Highway Trust Fund obligation.
    I think that is really the only way we are going to do it 
immediately.
    Mr. DeFazio. Similar to the ideas that are being bandied 
about to fix the projected shortfall is by recapturing some of 
that money with General Fund contributions?
    Mr. Lynch. The Wyden-Thune bill is another example, which 
is a federally funded, assisted bonding bill which would 
provide money in a way similar to the Highway Trust Fund. Those 
would be things that would be my recommendation, which would 
handle the problem the quickest right now.
    The VMT is something to look at, but it is a long ways off. 
I don't think that is something that we could grasp right away. 
Oregon has done a great job in analyzing VMT, but even they, I 
think, would tell us we are a ways off from perfecting that.
    Mr. DeFazio. Mr. Pangborn, you said you represent a transit 
district. Tell me about the stresses on your transit district 
or what you are aware of, and others, because of this very 
abrupt and very high run-up in high fuel prices and, therefore, 
correspondingly abrupt run-up in your passenger loads.
    Mr. Pangborn. I have worked for the transit district for 25 
years, and I never could see that I would be in this particular 
situation. Our ridership has grown 35 percent in 3 years and 17 
in the last year. I mean, all of the things we worked for and 
urged people to do, they are doing, primarily driven, I 
believe, by the price of fuel.
    At the same time, we are facing a situation where our board 
just approved a significant increase in fares--very difficult 
one because, for a lot of people, it will be hard to absorb 
even a quarter increase--from $1.25 to $1.50; and we are going 
to have to cut service because we do not have the funds, we 
don't have the revenue streams to support the increase 
particularly in the fuel and the increase in the ADA-required 
services, our dial-a-ride services.
    They are growing at 15 percent a year, and our revenue 
source is growing at about 7 percent. What we are having to do 
is rob the fixed-route service in order to support the dial-a-
ride service. It is a travesty, in some sense, because we are 
getting people on the system that are really accepting it, just 
in terms of wanting to be on transit, and we are running out of 
capacity and having to cut service.
    Mr. DeFazio. So we have sort of the perfect storm. People 
are being driven to transit because they can't afford fuel and 
transit can't afford the fuel either. So, then, you have got to 
raise fares on the people who are flooding to transit and at 
the same time cut the service, and there will be less 
availability.
    Mr. Pangborn. Yes, absolutely.
    Mr. DeFazio. If there was, say, some emergency injection or 
authorization to draw on the Transit Trust Fund this year, do 
you believe that it could be well applied by not only your 
transit district but transit districts across the country to 
meet a very unanticipated, short-term emergency situation?
    Mr. Pangborn. Well, I hope it is short-term. It may not be, 
but it would give us the time to find solutions. I mean, that 
is what we need, because otherwise we are going to have to cut 
service, and we will lose that very inertia that we have now. 
It would be critical, in my estimation.
    Mr. DeFazio. Well, Goldman Sachs, who controls a 
significant part of our fuel supply--most people don't know, 
but our fuel supply is not controlled by Exxon Mobil, Shell and 
others--it is controlled by Goldman Sachs and Morgan Stanley 
and others.
    Goldman Sachs keeps predicting $200, and of course, if they 
are long, it is going to $200 because they are making money and 
they are controlling the market. It is unregulated, thanks to a 
dead guy, Ken Lay, and Enron--but they are predicting the 
prices will stay really high only until the election, so they 
probably know.
    Mr. Pangborn. Well, I hope it is short-term, because for us 
a 20 cent increase in the price of a gallon of diesel 
represents 1 percent service loss. That is what we have to cut 
in order to make that up.
    Mr. DeFazio. Twenty----
    Mr. Pangborn. A 20-cent increase in the price of a gallon 
of diesel represents 1 percent of service for us. So we buy 1 
million gallons of fuel a year, so 20 cents would be 200,000. 
That is what 1 percent of service costs us.
    So if it goes up 20 percent and we don't have a 
corresponding increase in revenue, we have to cut 1 percent of 
service.
    Mr. DeFazio. Okay.
    We have had several people testify, Mr. Lynch and Mr. 
McDonald, specifically, and I believe there was one other, 
about rural sort of trying to meet--well, and of course, 
Greyhound to some extent--rural needs, particularly trying to 
target small communities that don't have viable scheduled 
service or other transit options--although it seems like 
Tennessee is doing some interesting and innovative things 
there.
    I am just curious, I have been asking for some time now how 
in Federal policy we could better address the needs of the 
dispersed rural populations, particularly an aging rural 
population, cost-effectively.
    And I would be interested in a quick response anybody has 
on that.
    Mr. McDonald.
    Mr. McDonald. Yes, Mr. Chairman.
    One way that would help us is technology. We don't have 
access on our side of the street, nonprofit agencies, 
necessarily to a solid funding stream for technology; but in 
the less-populated areas, if we can get better scheduling and 
dispatching and vehicle-locating systems, I think that would 
help in terms of the--and sharing that among a variety of 
service providers in a coordinated fashion, I think that could 
help.
    Mr. DeFazio. So an IT system that would provide real-time 
information and routing to those drivers to both save time and 
fuel?
    Mr. McDonald. Yes, sir.
    Mr. DeFazio. That is very interesting.
    Mr. McDonald. That is not typically available to agencies 
like ours. It is more available, it seems, to more transit--
traditional transit systems.
    Mr. DeFazio. That is very interesting.
    Mr. Isaacs.
    Mr. Isaacs. Let me grow that to a different level, 
information technology.
    The technology exists now to allow persons to go onto the 
Internet, buy an airline ticket, rent a car, get a taxicab and 
take care of their urban transit needs in order to enable a 
person that they can schedule service on Bill's system, get to 
Rochester and grab a Greyhound bus and perhaps even buy a 
ticket for both of those services, and then do a seamless trip 
all the way to their destination.
    That is within grasp, and the further integration of 
local--nonprofit, public and private services on the local, 
regional and intercity level is something SAFETEA-LU started. 
We can take that a bit further though.
    Mr. DeFazio. Again, if you have any specific suggestions in 
that specific area, I would be happy to hear them.
    Mr. Pangborn.
    Mr. Pangborn. I can give you a very specific example of 
that.
    We just opened a call center in the Eugene-Springfield 
area. Before this call center we used to have three systems 
that managed Medicare and our dial-a-ride service. We combined 
them all in one, and the key was technology, as Mr. McDonald 
said.
    Were we able to--in terms of dispersing who is the best 
provider to provide the trip and how to build that trip and who 
is going to pay for that through these myriad of funding 
resources, it really requires a very sophisticated IT system in 
a centralized area-wide system.
    But it can be done. It is much more efficient, and it 
begins to provide services out into the more rural areas.
    Mr. DeFazio. Great. Thank you.
    Mr. Lynch.
    Mr. Lynch. Mr. Chairman, I will just add one more point 
that really dovetails well with the other three, and that is 
offering more flexibility in the other program.
    In rural States, you know, flexibility is very important 
because of the diversity of the riders that we may have and the 
multitude of different types of riders we may have within a 
transportation system. So allowing us more flexibility to spend 
that Federal dollar would support what the three other 
individuals just testified to.
    In Montana, we grew, in 2005, under the increased funding 
of SAFETEA-LU from 12 providers in Montana prior to 2005 to 
over 36. If we had more flexibility within the program--
supported with additional funding--that would allow us to grow 
even more providers and offer more affordable opportunities for 
people to ride mass transit.
    Mr. DeFazio. I would appreciate any follow-up you can give 
us on specific barriers to that flexibility. That would be 
helpful.
    With that, I turn to Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I would thank all the 
members of the panel for coming and sharing this insight.
    Mr. Limehouse, in your closing remarks you identified 
partnerships as the future of transportation funding. I would 
like you to explore that thought a little more, and please 
mention any active partnerships that you have seen that have 
been successful.
    Mr. Limehouse. Mr. Chairman--and I have trouble not calling 
Congressman Brown "Chairman Brown," because he was Chairman of 
our Ways and Means for so long--but he put together and 
authorized a bill that provided us with a State transportation 
infrastructure bank, which I was suggesting might be something 
that could be applied on a Federal level, because this would 
allow you to leverage the existing funds that you have without 
creating new funds.
    Congressman Brown's act provided one of the most innovative 
programs in the United States, and it is kind of the old 
theory, the good Lord helps those who help themselves. We have, 
I understand, done more projects under our State infrastructure 
bank program than all the other States put together. That is my 
understanding. Major projects, rural and urban, they have been 
very successful, about $3 billion in new projects, and we got 
them done.
    We did 27 year's worth of work in South Carolina in 7 years 
with the use of bonding programs; and we did it under the old 
pricing, so we didn't get hit by some of this inflation.
    So we are pushing the fact that if you will partner with 
the States, you will see who is really serious about going 
ahead with programs, and they will find other sources of 
funding to match the Federal funds. The program I am referring 
to, Congressman Brown put in a local match so that all the 
local communities that wanted projects or projects that--
existing ones improved, like the bridges down in Charleston and 
the interstate in his district, they were required to put up a 
local match, so they came from a variety of sources, but not 
gas tax.
    Mr. Brown. Mr. Limehouse, on the issue with the local 
match, do you know how many counties have actually had 
referendums to implement a local sales tax in order to generate 
the local match on the infrastructure bank?
    Mr. Limehouse. Congressman, we have a local sales tax in 
Beaufort, York, Florence, Oconee, Berkeley, Dorcester, 
Charleston and about five or six counties that are putting it 
on the referendum for this year. So they realize that if they 
don't put something into the fund that we are not going to be 
able to do all the things--any State that is growing can't keep 
up with their infrastructure needs, so that is what we are 
going to.
    We are not just using local option sales tax, we are using 
hospitality tax, we are using local option gas tax, a variety 
of sources to supplement the State and the Federal funds.
    Mr. Brown. With that background, do any other members of 
the panel have any creative ideas that they have used to 
enhance the road infrastructure in your jurisdictions?
    Mr. Isaacs. If I may, Greyhound has been working very 
closely with a number of State DOTs to improve the number of 
enhanced transportation services statewide and even to replace 
some of the services that have been lost in our reorganization.
    What we are finding--even this week, I had a conversation 
with a rural transit agency in Alabama. Where you have an 
economic engine and a small urban area, you have the ability to 
raise the sales tax, convention taxes and others.
    In rural America, agencies and cities or small towns are 
struggling to come up with that local match. I knew an agency 
this week that had a capital grant made available through 
SAFETEA-LU that could not raise the local match and had to have 
the--the grant was not fully realized as a result.
    There has got to be some way, especially for rural areas, 
to help meet that. One of our thoughts was to help meet, at 
least on the surface side, with the local in-kind match using 
Greyhound, unsubsidized Greyhound services of value for that 
purpose.
    Mr. Brown. I know the Secretary can probably answer this 
better than me, but in South Carolina we have what we call a C 
Fund program that actually helps--we called it back in the 
early parts the "farm-to-market roads," which helped, I guess, 
subsidize those local communities that could not participate.
    Yes, sir.
    Mr. McDonald. Mr. Brown, we have worked to get matching 
dollars for some of the Federal transit grants that we have 
from private sources and have found some measure of success 
with that, local businesses that we contract with to provide 
shopping shuttles, as well as foundation and grants that way.
    We have struggled a bit to get flexibility of match with 
some of the other Federal funding sources, however, such as the 
Administration on Aging; and it seems that we get an unclear 
message about whether we can utilize some of those fundings, 
put them together, if you will, to buy a vehicle. And it would 
certainly be helpful to have that flexibility.
    Mr. Brown. Mr. Chairman, I know my time is gone.
    The dialogue I was trying to create is the fact that our 
Highway Trust Fund up here is certainly underfunded, I think, 
by about $8 billion. We are trying to reconcile that now.
    But what I wanted to just identify was the struggling the 
States are having to try to meet the congestion problems they 
have had within the States, and also as we increase the mileage 
of our vehicles and actually have less funds coming in with the 
gas tax.
    I would hope that this Committee would take a look at 
trying to find some alternative ways to finance the reserve 
fund.
    Thank you.
    Mr. DeFazio. I thank the gentleman. I am open to ideas on 
that, so I would be happy to have that discussion.
    Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman.
    I would like to thank the panel for being here. I would 
like to especially thank Mr. McDonald, my neighbor from New 
York. I apologize for not getting back in time for all of your 
testimony, but I heard the end, and thank you for being here 
and sharing your perspective with us.
    Gentlemen, I just have one question. I am from a district 
that has several cities, small cities in it. They all have mass 
transit companies in them. Some are the same companies, some 
share the same company between municipalities, others have 
independent.
    My concern is this: The companies are good at getting 
people from the inner city, the cities to the suburbs, but how 
are we going to get the people from the rural areas, who are 
really suffering, into the urban areas where many of them do 
their shopping? They seem to be suffering the most as a result 
of the gas prices. They have to come the longest distances.
    I mean, do we put the lines in? Do we run the lines to the 
rural areas and hope that they will come? You know, "build it 
and they will come"? Or do we wait until the demand gets to the 
point where we have to then bite the bullet for the short term 
and let the lines run even if the ridership is down very low?
    Do you have any thoughts or suggestions on it?
    Mr. Isaacs?
    Mr. Isaacs. With respect to rural service, the shifting 
demographics don't always support building the service and they 
will come.
    I think the successes that we have seen with our efforts 
are linkages between the existing--there are, what, roughly 
1,000 rural transit operations throughout the United States, 
and the extent to which those rural transit agencies can link 
with inter-regional and intercity services coming into 
Rochester where there may be an intermodal facility, where 
modes are all present--Amtrak, regional rail, ground, and 
others--can certainly enhance the mobility of rural customers.
    But--sometimes it may be a demand-response service coming 
from the rural area into the more urbanized area, but the 
network is there. I think building a bridge among the disparate 
players to integrate the services long term is a good policy 
idea.
    Mr. Arcuri. Mr. McDonald?
    Mr. McDonald. Yes, Mr. Arcuri, I think that one of the ways 
is to take those resources in those rural areas, whether it is 
an Office for the Aging vehicle and so on--and it gets to that 
technology and coordination piece again, where if we can have 
better communication and better linking of those existing 
resources, and know where they are and how to dispatch them 
better, we could build on that and run a shuttle into a more 
urban area.
    And we are doing that. I think we can do more of that. The 
investment doesn't have to be huge vehicles and fixed route 
lines always; it can be more of a coordination focus, removing 
those barriers, though, that prevent an Office for the Aging 
vehicle to be used in another fashion, for instance.
    Mr. Arcuri. Well, now I guess the tough question, how do we 
get that message out? How do we get that message out to people 
in the rural communities that the services--that services will 
be granted at the following times?
    Yes, sir.
    Mr. Pangborn. I don't think it is difficult to get the 
message out. There is a pent-up demand out there; they are 
looking for it. There are communication services. There are a 
number of social networks that are already established. It is 
really to have the service.
    One example--and flexibility is really the key--is what's 
called the deviated fixed route, is that you have--you put it 
out and say, we are going to run a bus from this little small 
community into a large community twice a day or every 2 days, 
whatever it is, and here are the days; and if you live within 
so many miles of that, we will actually come off route and pick 
you up.
    You start doing that, and soon you will build a market that 
maybe you can even add more service because people will start 
finding ways to get to it.
    People work very hard to get to that transportation they 
need. You just need to have it out there and accessible to 
them. That is our experience anyway.
    Mr. Arcuri. Yes, sir.
    Mr. Lynch. Congressman, I might add, in Montana we are 
rural. In fact, we are as rural as it gets. We were able to, in 
just less than 3 years, triple the ridership, the entities 
serving riders in the State of Montana, going from 12 to over 
36.
    In what we did, as I mentioned earlier, flexibility is very 
important. But in that flexibility, I think you also need to 
encourage, in a way, providing revenue to those agencies that 
are willing to coordinate, meaning that they are not just going 
to take their rider, they are going to take a multitude of 
riders.
    I believe you also--we need to look at how we are 
positioning those buses. You know, buses should be going to--
buses and trains and airplanes should be going to the same 
areas rather than dropping somebody off 15 miles from another 
location and another form of transportation. I think that is an 
enhancement to mass transit that is very much needed even in 
rural States.
    Mr. Arcuri. Mr. Limehouse.
    Mr. Limehouse. Congressman, we had a situation that goes 
right to the point of your question. I found that there were 
numerous providers that were all going by the same place, so in 
our State last year we diverted the funding to some of the 
other agencies where we didn't have the ridership. And so, you 
might be going to medical treatment, or you might be going to 
work, but the same provider is now carrying multiple passengers 
of different persuasions.
    So it has worked out pretty well. It is certainly better 
for us because it is cheaper for us to pay somebody else than 
to run the same route with nobody on the bus.
    So that is what we are doing. Thank you.
    Mr. Arcuri. Very good. Thank you, gentlemen, very much.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    Howard, do you have any questions? You don't have to have 
any questions, but if you have one, I will entertain them now.
    Mr. Coble. I will ask one very quickly. Thank you. Pardon 
my late arrival. I had to go to the floor, as you all know.
    Mr. Limehouse, my neighbor to the south, in your testimony 
you speak of the Highway Trust Fund's inability to effectively 
meet the demands of the motoring public. What alternatives, 
solutions, would be a better option for financing our Nation's 
surface infrastructure?
    Mr. Limehouse. Congressman, we have to get away from the 
number of gallons purchased, because it is not in our national 
interest to use a large number of gallons of motor fuel. So the 
tax has to be based on the number of lane-miles or some 
calculation that is usage and not number of gallons of gas you 
buy.
    In our State and also in North Carolina, because we have 
aggressive programs right now because we are growing, both 
tourism and other--you know, manufacturing, we feel that we 
should partner with the local communities and the Federal 
Government to come up with and get private business involved in 
the transportation systems.
    Mr. Coble. Thank you, sir.
    Mr. Lynch, at the table, you probably are the most rural 
State represented here today. Let me ask you a two-part 
question. Should Federal dollars continue to be a central part 
of financing infrastructure needs in rural States, A; and, B, 
how do rural States attempt to leverage resources to maximize 
each Federal dollar they receive for their transportation 
systems?
    Mr. Lynch. Congressman, the answer to the first question 
is, yes, and primarily because of what we are dealing with in 
our--the five States that I am talking about. In particular, in 
Montana, for example, we basically have--24 of our 56 counties 
have less than two people per square mile. So, to find some 
resources from the citizenry within the State of Montana is 
very difficult for increasing funding. We need a strong Federal 
role in highway transportation for the State of Montana.
    We maximize--we have a very high state gas tax. And, as I 
said in my written testimony, ours is $156 per capita in what 
we contribute to the Federal highway account, which is far 
above the national average. And we have a high gas tax in 
Montana, but we also have a lot of uses--we are a bridge State. 
Our State provides opportunities for other States, and that is 
why the Federal role, I think, is very important for our State.
    We match every Federal dollar we receive, and we do it very 
efficiently. We have a pavement management system to make sure 
we put the money on the roads that need the attention and not 
necessarily a favored project anywhere.
    Mr. Coble. Thank you. Thank you, gentlemen.
    Mr. Chairman, I yield back.
    Mr. DeFazio. The next set of questions will be from Ms. 
Hirono.
    I have to complete a call to my governor on an urgent 
issue, so I am going to ask her to assume the Chair and excuse 
myself from the panel. She will take over in a moment.
    Ms. Hirono. [presiding.] Mr. Limehouse, I think I heard you 
saying something about you were able to do 37 years of 
infrastructure work in only 7 years.
    Can you just tell me a little bit more about that, because 
one of the things that we have heard in our various hearings is 
that it takes so long to get the Federal money, to go through 
all the hoops and to do anything. So I am very interested to 
hear how you all did it.
    Mr. Limehouse. Thank you, Congresswoman.
    What we determined was that the cost of construction, 
materials and labor was going up faster than the interest that 
we would have to pay on bonds, so we bundled together all of 
the projects around our State that we thought we would need to 
do; and we calculated with the use of an aggressive bonding 
program through the infrastructure bank that we formed under 
the legislation that Congressman Brown authored. We went out 
and hired large companies to break it down so that they will--
you know, all of the State was represented, and we completed 
those projects in 7 years.
    So now a small portion of our Federal and State funds go to 
service debt instead of building roads. We have found it to be 
extremely successful, and it was a fantastic cost savings to 
the State.
    Ms. Hirono. Now, we don't have a Federal version of an 
infrastructure bank, right? I mean, that was one of the bills 
suggested, I think it was only last week, in one of these 
hearings that we have had here.
    Would you recommend that the Federal Government look to 
paying for Federal infrastructure needs through this kind of an 
entity or through a bonding kind of a fund-raising mechanism 
than what we currently have?
    Mr. Limehouse. In my opinion, if you authorize that 
immediately, that would get us through this crisis period, 
because then you would only--only the projects that States were 
really interested in, or local communities were focused on that 
had need would go forward, because if they had to help, they 
wouldn't be so quick to ask for funding.
    So I think a national infrastructure bank along the lines 
that we developed would be very helpful right now, particularly 
in this period of time where no one can keep up with 
construction costs that are rising so quickly. If you bonded 
out, you made your projects, you would fix those costs today.
    We also use design bill and other things that set the costs 
on the front end, so that we didn't have them escalate through 
the life of the project. Those are the techniques that we are 
using to control our costs in South Carolina.
    Ms. Hirono. Do the other panelists have anything to add? Do 
you agree that we should look to other ways of raising money to 
pay for our infrastructure needs? Bonding?
    Having an infrastructure bank at the Federal level may be 
one way. Do you have any thoughts, any of the other panelists?
    Yes.
    Mr. Lynch. Congresswoman, I mentioned in my testimony and 
also here, the Build America Bonds program is a good program. 
Why I think it is good for rural States is that it guarantees 
money to the rural States. Infrastructure banking plans, they 
are okay as long as the mechanism is, but how are you going to 
get the funds to States like Montana and the other four that I 
represent that have small amounts of funding.
    You know, a $50 million project in Montana has never 
happened. I think most of these infrastructure banks and large 
programs are talking about $500 million projects or programs. 
So, I think when you look at funding sources you can't lose 
sight of the needs that rural America has and the limitation 
they have to participate in such mega-programs.
    Ms. Hirono. Well, I can completely agree with that because 
I represent a district that is six islands, and five of the six 
islands don't really have much of a transportation system to 
begin with.
    I have another question about--but I think one of you 
mentioned that we--or many, several of you may have mentioned 
that we have these funding silos for highways, for aviation. 
There is some suggestion that maybe we should not have these 
silos, to create more flexibility, intermodal flexibility not 
just within the Highway Trust Fund, to have flexibility there, 
but to allow--to think in terms of intermodal so that we can 
use these various funds in ways that will allow States, as well 
as the Federal Government, to establish some priorities in a 
different way than we currently approach the issue.
    Mr. McDonald. Yes, Congresswoman. I just want to reiterate 
how important that is for agencies such as ours and other not-
for-profits and small rural transit where what we could do with 
what is a small rounding error in a highway project is 
phenomenal.
    To the extent that it is easier to flex some of those 
dollars between these silos and have local planning areas and 
local communities have some authority in saying that, would be 
just an incredible boost and help to community transportation.
    Ms. Hirono. Do the rest of you agree with that kind of an 
approach? We would have to do a lot of changes to Federal law 
in order to allow that kind of flexibility, wouldn't we?
    Yes.
    Mr. Pangborn. Yes, the SAFETEA-LU did actually build in 
some flexing between highway dollars and transit. I know in 
Oregon that money was flexed at the State level and went into 
projects such as was mentioned by the last speaker, and we have 
used it at LTD. Of course, it is a double-edged sword.
    Right now, you have this big press coming to have more 
emphasis on transit. At the same time the roads are in really 
tough circumstance also. But at least you make it a local 
decision. It is made at the level where people really have to 
live with the product. It is not-- you know, the Federal 
Government acknowledging it is a need, but letting the decision 
be made locally in a flexible way; and I think that is 
appropriate.
    Ms. Hirono. Thank you. I believe my time is up. Does anyone 
else have questions?
    Mr. Carney?
    Mr. Carney. Thank you, Madam Chair. This is a question for 
the entire panel.
    We know how much it costs, or we have a rough estimate, at 
least, of how much it costs to fix the Nation's infrastructure.
    Do we have any idea of the cost if we don't? Feel free, 
panelists, to jump in on that one.
    Mr. McDonald. A lot more.
    Mr. Pangborn. I wish I could give you a number. I can tell 
you in some ways, you know. I talked about, we are having to 
raise fares and cut services.
    I just was at a public hearing last week where there were 
35 people, all testifying, saying that if you cut my service, I 
will lose my job; I have no other means to get to my job. If 
you cut my service, I will not be able to go to school, because 
I will have to move. You know, that is very difficult.
    So, I mean, there are some real, real issues here in terms 
of people, just economic viability of a community if, in fact, 
we don't really make an investment.
    Mr. Carney. Mr. McDonald.
    Mr. McDonald. Congressman, to that point, I know in the 
areas of nonemergency medical transportation, there have been 
some recent studies that have done an analysis of the cost 
benefit. And the higher cost of not getting people to medical 
care for preventive services is quite staggering. I don't know 
what those numbers are, but the Transportation Research Board 
did a recent study, which is available.
    I mean, it is staggering. It is what you think it would be. 
It is more than just not being able to get down a highway 
because it is not fixed. Or cross a bridge; I mean, it has 
life-threatening implications and higher health care costs as 
well.
    Mr. Carney. Thank you.
    Yes, Mr. Bobrowski.
    Mr. Bobrowski. I think a great example is the Appalachian 
Development Highway System within a large region, a 13-State 
region. That program was developed back in the 1960s, and 
continues now and is expected to be completed in 2035.
    That really is the primary region that the Appalachian 
region has been able to achieve progress towards parity with 
the rest of the country. It really is based upon 
transportation, removing isolation, allowing folks economic 
opportunities.
    Certainly that has occurred within our region. U.S. Highway 
25E is a highway that is going to cut about 60 miles of travel 
between folks coming from the east going to the west, and is 
also going to be designated--we hope it is going to be 
designated as a National Scenic Byway. So there are tremendous 
tourism possibilities.
    There is economic development there. There is efficiency 
and effectiveness there.
    Today, our Tennessee Department of Transportation has 
turned into an operation and maintenance organization 
primarily, not able to develop new projects. That is a big, big 
problem for our rural areas and something that is backlogging; 
it is going to continue into the future as Federal recessions 
occur, so things are getting much worse.
    Mr. Carney. So you wouldn't mind seeing some more ARC 
highway miles allotted?
    Mr. Bobrowski. We would love to see more miles.
    Mr. Carney. Me, too.
    Anyone else on the larger question?
    Yes, Mr. Lynch.
    Mr. Lynch. Congressman, you know, it is a very important 
question, but also a very difficult one to answer. I think it 
would be difficult for States, you know, rural States like 
ours, which do not have a large population.
    I am assuming, when you say you no longer fund the Federal 
transportation system, two things happen: You are just not 
funded at all and no repairs are made. Or do you look at other 
ways of funding within that State? There are States that would 
just not be able to pick up that load_look at the size of 
Montana and 600 miles across and the bridging that you have.
    The second cost you have is, it wouldn't just be the cost 
to Montana. There is a tremendous amount of economic engines 
that are being developed, from Portland and Seattle to Chicago 
to Minneapolis, that not having a transportation system across 
the State of Montana wouldn't mean they would move their goods 
to another route. It would mean they would probably lose their 
business to another entity that could move their goods more 
efficiently or better. So the cost is insurmountable and would 
keep multiplying in that respect.
    So--but when you look at the dollar aspect of a job, I can 
tell you that if we don't maintain our roadways, we can go from 
$1 million a mile to $4 million a mile in a very short period 
of time. If we have to totally turn our roads back to gravel, 
which some provincial governments north of our border have done 
because they have lost funding, that would be detrimental to 
the Federal transportation system; and it is probably a route 
we would not want to go down.
    Mr. Carney. Thank you. Anyone else?
    Thank you, Madam Chairman. No further questions.
    Ms. Hirono. Ms. Richardson.
    Ms. Richardson. Yes. I will be very brief. I am really here 
in support of my colleagues because I come from a pretty area 
that has highways everywhere. So when I read the material last 
night about rural roads and all this, it was a true learning 
experience.
    So I am here to support my colleagues. I have one question, 
though.
    There is discussion here in Washington about consolidating 
some of the Federal transportation grants to States. While the 
aim is to reduce the red tape and to speed the flow of funding 
to communities, are there potential pitfalls that you worry 
about that could adversely affect your particular communities?
    If so, what could we do to help you if that, in fact, 
occurs?
    We have had--let me just summarize my question that I just 
asked you there. We have had several Committee hearings, and 
they have said we need to take the programs from 100 down to 
10, and this would be one of them.
    What do you see the impacts would be, and how can we 
prevent you from being harmed in that way?
    Yes.
    Mr. Pangborn. I think consolidation and flexibility, which 
has been a theme that we have talked about here at the table, 
is an important goal.
    What you have in place is a whole system that has been 
built up to accommodate the Federal silos of funding. So I 
think a wholesale kind of consolidation might throw kind of the 
local decision process into chaos, and it would take a while to 
adjust.
    I think a ratcheting down in terms of consolidation would 
be a good idea, though, because it would allow that greater 
flexibility and more local decision-making. But probably over a 
period of time, either during the 6-year course of a bill or 
over the course of a couple of bills, it takes a long time for 
local governmental decision-making processes to adjust. You 
have got this whole system, and if you do it quickly, it really 
doesn't accomplish where you want to go because you get poor 
decisions instead of reasoned decisions.
    Ms. Richardson. Mr. McDonald.
    Mr. McDonald. Yes, Congresswoman. I have been in community 
transportation for 25-plus years, and I can say, probably, it 
would be worth the risk in terms of the trade-offs.
    Ms. Richardson. That is very interesting.
    Mr. McDonald. If you were to have more consolidation, have 
more local control and say, because the silos, I just conclude, 
prevent a lot from happening. For people with disabilities and 
the elderly, which is the group that we work with, there is so 
little money now in Federal transit funds dedicated to that 
purpose, that I think the risk is worth it for us.
    Ms. Richardson. Thank you.
    I yield back the balance of my time to our great Chairman 
and Chairwoman.
    Ms. Hirono. Chairman Oberstar.
    Mr. Oberstar. Thank you, Madam Chairman, for covering bases 
while Mr. DeFazio tends to other issues. It is good to be have 
you in the chair.
    Ms. Hirono. It is good to be here.
    Mr. Oberstar. You are a strong advocate of public transit, 
and we appreciate that very much.
    This hearing is very important for the future of 
transportation. I have been distracted by other Committee 
activities this morning, one of which was a session with the 
travel and tourism interests from across the country. Mr. Mica 
and I, actually, our Full Committee Ranking Member and I are 
making a presentation to travel and tourism interests about the 
need to sustain transportation in the future for support of 
this third most important economic sector in most of our 
States.
    But so much of travel and tourism is centered around 
attractions in rural communities, I pointed out that 
Yellowstone and Grand Teton National Parks attract 9.5 million 
visitors a year. That is five times the population of Montana, 
and Wyoming combined. You can repeat that all across the 
country.
    Now, in the aviation situation, the gentleman from South 
Carolina, Mr. Brown, who is a champion for travel to South 
Carolina for tourism investment in South Carolina, he knows 
very well that if everybody had to drive there, they wouldn't 
come.
    You have to--you need all the modes. We need to upgrade the 
high-speed rail service on the East Coast. We need to invest in 
the Midwest high-speed rail initiative. We need to invest in 
the southern tier, in the northern tier, service that used to 
be the Empire Builder to the West Coast from Minneapolis-St. 
Paul. California is one-fourth of all of Amtrak passenger 
traffic, but between these great points of interest are small 
towns, rural communities that are not adequately served by 
public transit.
    As the public has reached out for transportation 
alternatives in this high-fuel-price era again, although much 
more than in the 1972-to-1974 oil crisis or in the mid-1980s 
when we had another spike in oil prices--and after Gulf War I 
there was a spike in oil prices, but it quickly subsided; this 
is long and sustained.
    People are looking for transportation alternatives.
    The problem is, we have underinvested in transit until the 
ISTEA legislation of 1991, when we began to increase the 
percentage out of the Highway Trust Fund into transit systems 
and to establish a set-aside, a separate account, formula 
program for rural transit, the 5311 program. But in that period 
of time from, say, the 1960s until the mid-1990s, there was so 
little investment that our manufacturing capability moved 
offshore.
    I held hearings in 1985, 1986, 1987 on the Buy America 
program, working well in highways, working well in the Corps of 
Engineers, the Clean Water Program--terrible in transit because 
the capability to produce all the parts had moved offshore. 
Allied Signal is about the only domestic manufacturer, and they 
were outsourcing much of their work because there was no market 
for it.
    The market is there now, and those transit systems are 
aging. Transit buses should be replaced every 6 or 7 years; you 
find buses now that are running 1.5 million miles in urban 
centers. Our rail cars are--in light rail, commuter rail 
systems, street cars are rusting out.
    You go to places like Chicago, which has the second largest 
transit system in America, 800 million trips a year; and they 
are welding pieces in, holding their rails into the support 
structures of their rail cars, of their bus system. You look 
underneath, it is all rusting out, and they don't have the 
capital to replace.
    Worse are the rural areas, smaller communities.
    When I was growing up, we didn't have a car. My father had 
a very firm world view, if you can't walk there or take the bus 
there, you don't need to go there, wherever "there" is. So for 
one summer he bought a 1937 Ford to go fishing. And he would 
come home from work in the underground mine, and then we didn't 
know enough to drain the radiator, so the block froze and the 
car was scrapped, and we never again had a car.
    But we always had the Greyhound bus. And you would get on 
the Greyhound bus and go over to Hibbing, just 6 miles from 
Chisholm, to see my grandmother and family over there. We would 
go across the range; that is the iron ore mining country. Then 
the automobile just sort of squeezed out bus service.
    So who is providing transportation services to small 
communities with aging populations who don't want to move to 
urban centers, who have needs that are provided by urban 
centers such as, well, say, in Hibbing, a population of 20,000, 
of Virginia, a comparable population, Duluth?
    But if you live 30 miles out in the countryside, how do you 
get there? The Arrowhead Economic Opportunity Agency has a bus 
service, and similar economic opportunity agencies provide this 
service. It is not provided by a multicounty transit agency; it 
is not provided by a multicommunity transit agency.
    We have to find ways to provide that service.
    In hearings that I held also in the late 1980s on a 
multiplicity of transportation services into small towns or 
into rural areas, we found that those who are making calls on 
homes to take persons to medical visits or simply to shopping 
in minivans or minibuses often found someone on the floor with 
a heart attack or a stroke.
    They are providing a medical service. They are providing 
support service. Yet this is not part of an organized 
transportation service; it is part of some other function of 
government.
    All right, now, you are all practitioners of the art. What 
do we need to do to 5311 with the $2 billion that we allocated 
over the 5 years of SAFETEA? What changes do we need to make in 
service, public transportation service to small communities, in 
what ways, to assure sustainability so that people don't have 
to move out of their homes, don't have to crowd into 
multiliving facilities where they will enjoy their quality of 
life and live a better life and not be in some sort of public-
supported activity like a nursing home or congregate-care 
activity? They can live independently, but they need 
transportation.
    All right, there you are, there is your charge. You are 
going to write the next transportation bill, this part of it. 
Tell me what you want to do.
    Yes, Mr. Isaacs.
    Mr. Isaacs. With respect to rural transportation, intercity 
bus is essential, as you know. We have worked with your office 
many years now. We have worked with the Arrowhead Economic 
Opportunity through Judy Byman for many years. You have been an 
advocate for rural transit for a long time.
    There is still a discrepancy between the funding levels and 
the population levels in rural areas, so increasing the Federal 
funding for rural areas to at least match the population 
comparable to the percentages would be one step in the right 
direction.
    Maintaining the relatively small subsidies going to 
intercity bus service would help, and enabling those agencies 
that are out there--the Arrowhead Economic Opportunity Agency--
to be able to link with intercity bus services, so that you do 
have a local provider providing that service to the next larger 
town that can connect with intercity bus services. The same way 
with Amtrak, with the remaining air network that will be around 
in the years future and intermodal air transportation centers 
is, in my way, in my mind, the best bang for the buck.
    Mr. Oberstar. Well, rather than creating a new intercity 
transportation system, we already have Greyhound, Jefferson 
lines, several other intercity private sector services. Is 
contracting with a transit--rural transit agency sufficient?
    Mr. Isaacs. It helps. Other than the 5311(f) program, there 
is no funding that enables that kind of connectivity to exist. 
Where it does exist, you have a local champion that takes it 
on.
    So to the one question that Ms. Richardson raised about 
what is the downside of removing the funding silos, one 
downside is making sure that those programs that are funded for 
rural areas, at least are funded at an appropriate level with 
some guarantees that there are going to be some funds available 
for them.
    But a program that would not only encourage those who want 
to do it locally, but make it the law of the land, would be 
very helpful.
    Mr. Oberstar. I paid particular attention to a question 
from Ms. Richardson, a new Member of Congress, that every time 
she walks into this Committee room, she has got her thinking 
cap on. We appreciate that.
    I just have to make a personal disclaimer about Greyhound. 
Greyhound started in my district between my hometown of 
Chisholm and Hibbing, our next-door-neighbor town, by bus, 
Andy, who started driving miners to work in his 1926 Hupmobile.
    Go ahead, Mr. McDonald. My late wife is from Rochester, New 
York.
    Mr. McDonald. Oh, okay. It is a great place.
    Mr. Oberstar. I spent a lot of time up there.
    Mr. McDonald. Beautiful time of year up there right now.
    Mr. Oberstar. Yes. Lilacs.
    Mr. McDonald. Yes, exactly.
    In some of the more rural areas of Monroe County, 
Rochester, there are a lot of faith-based and volunteer groups 
that are providing some of that transportation that you were 
referring to, and other not-for-profits. I think what would 
help is some support for infrastructure, for vehicles, for 
communications, for technology, that could link them together 
and provide them some of the vehicles, literally, to do their 
work and share those vehicles.
    So whether that can be achieved through 5311 or 5310 or 
some sort of flexible pot--but to take some of the existing 
entities that are in the community and help build them up, not 
only the traditional transit approach, but a lot of services 
being provided that way, and some are starting to get 
diminished with the high cost of fuel and ability to do it.
    But I think there are some creative ways to do that.
    Mr. Oberstar. We need a public entity, an oversight, to be 
the dispenser of grant funds. You can't have the Federal 
Transit Administration making thousands and thousands of 
individual grants, but to major--so do you have some thoughts 
about creating, say, a multicounty, a multicity, rural transit 
provider entity, such as exists already?
    Mr. McDonald. You have----
    Mr. Bobrowski. Mr. Chairman, in my district that regional 
organization already exists, the East Tennessee Resource 
Agency. And they typically coordinate the area offices on 
aging----
    Mr. Oberstar. Yes.
    Mr. Bobrowski. --which served an awful lot of the 
population that uses rural public transportation. So those 
organizations are already out there in many, many cases. Our 
particular organization serves 16 counties and the entire State 
of Tennessee is served by human resource agencies that operate 
rural transportation systems. So I would advocate for using 
those existing organizations as conduits through which Federal 
funds could flow. And in all of these agencies are experiencing 
very, very significant--well, the squeeze is on of course. The 
aging population is placing more demand on the systems, and 
then, of course, operating costs are going through the roof. 
And in our particular district the replacement of very, very 
expensive vehicles is a particular problem as well.
    Mr. Oberstar. Do they operate on a regularly scheduled 
basis?
    Mr. Bobrowski. They do, yes, they do. And every county is 
served----
    Mr. Oberstar. And under what overall jurisdiction is the 
human resources program?
    Mr. Bobrowski. We have 16 counties that are served by the 
human resource--or Knoxville.
    Mr. Oberstar. Is the board an entity of the 16 counties?
    Mr. Bobrowski. Yes, sir, it is. The board is composed of 
the mayors of the 16 counties.
    Mr. Oberstar. Okay. That could be a very good model for 
elsewhere in the country. Others have thoughts? Mr. Lynch.
    Mr. Lynch. Mr. Chairman, you asked what we'd do if we had 
been given responsibility to write this portion of the bill. I 
think the first thing that I would do is thank you for the 
increase in Federal funding that we got and respectfully ask 
you to keep it up in the next bill.
    Mr. Oberstar. Oh, we will, it will be bigger.
    Mr. Lynch. And under what we have done under the Schweitzer 
administration, Governor Schweitzer in Montana, for the first 
time in years, if not the history of Montana, we have actually 
brought together two agencies which deal with rides_and that is 
the Department of Transportation and the Office of Public 
Health_and the grant money that they receive to provide 
ridership. And we are trying to coordinate our efforts with 
their efforts where we can maximize the Federal funding that we 
receive through Medicare and other sources through public 
health and that that we receive through the SAFTEA-LU in 
providing rides and transportation opportunities. We have grown 
a lot in Montana since that. Since 2005, we have gone from 12 
transit providers to 36. That may not sound like a lot, but for 
a rural State like Montana, where some of us even still ride 
horses, that is a big improvement.
    One of the obstacles that we have seen, I think can be 
addressed by offering the flexibility, which I have talked 
about earlier, and through coordination within State agencies 
that deal with rides. What is important is really working the 
coordination level and trying to consolidate services to the 
users----
    Mr. Oberstar. Yes.
    Mr. Lynch. --of the transit system. And oddly enough, and 
surprising to me, our obstacle has not always been just from 
the governmental standpoint, but also the riders. And 
understanding that, you know, some riders don't want to ride 
with other riders. When we are consolidating elderly with 
disabled and whatnot, there is sometimes problems. And I think 
our agency, our State, has taken a leadership role in trying to 
educate and basically eliminate some of the perceived 
conceptions of why two different uses of transportation systems 
within our State can't function on the same bus. Now, there are 
going to be exceptions, but I think that is really the big 
effort that we need to do at a State level from a governmental 
standpoint.
    You asked earlier if there was a governmental agency that 
is responsible. I think that is a very proactive move the 
States can make in trying to encourage people to share the 
ride.
    Mr. Oberstar. You touch on something that is very important 
and that is consolidating the multiplicity of services provided 
under the aegis of different Federal and non Federal programs. 
I found in hearings I have conducted in '87, '88, 137 Federal 
Government programs that provide funding for transportation 
services, most of them not in the Department of Transportation 
and the agencies weren't talking to each other.
    Is that Mr. Clinger, a former Member of Congress, a 
Republican from Pennsylvania, a Ranking Member and myself, he 
and I were exasperated. So finally, I said we need to 
coordinate all of these. So we had three different cabinet 
officers whose departments were engaged in funding 
transportation activities. I said we're going to have a 
hearing, and all three of you are going to come. And we are 
going to find out how to coordinate. So they came and said, we 
have agreed on a coordinating counsel. When did you do that 
that? This morning.
    Yes, Mr. Pangborn.
    Mr. Pangborn. Just to reemphasize that, you know the silos 
at the Federal level, the funding silos have built up the same 
silos at the State level.
    Mr. Oberstar. Yes, that is exactly right.
    Mr. Pangborn. To get the Department of Transportation to 
talk to the Department of Health and Human Services with all 
these myriad of rules, the one thing the Federal government 
could do in the legislation is require that coordination and 
consolidation. So if you want the money, you have got to set up 
the system that it happens at the local level. That would be 
absolutely critical. Because they deal from different 
perspectives, and it is very hard to get them to sit at the 
table and talk the same language.
    Mr. Oberstar. It hasn't changed in 20 years. Mr. Isaacs.
    Mr. Isaacs. And with respect to what you can do. What we 
have noticed over the past many years is that with what was 
previously the urban mass transportation programs and now the 
FTA programs, is that State DOTs have typically been grant 
managers for those smaller programs. And in some states you 
haven't seen as much focus on statewide public transportation 
planning where the state can take the lead role in becoming the 
advocate and the champion for linking all the rural services 
and regional operators into a statewide network with some 
Federal guidance and some oversight about what they should be 
planning and how they should be planning it. I think State DOTs 
can play that role very effectively.
    Mr. Oberstar. Mr. McDonald. That is a very good thought, I 
appreciate that.
    Mr. McDonald. One the requirements of SAFETEA-LU, which was 
a very positive gain, was the requirement that public transit 
and human services engage in a planning and develop local 
plans. And we have done that in our community and I am sure 
others across New York. So I would say that continuing that 
requirement is certainly in order. And then looking at again 
that local 9 county region, some strategic recommendations were 
developed. A lot of those had to deal with what we talked about 
today access to information and the creation of a central 
number and database, the use of technology, supporting 
specialized transportation as well as many recommendations on 
public transit. So continuing that requirement as has been 
said, which exists now in a new way and strengthening it in the 
reauthorization would be a very positive and continuing that 
process.
    Mr. Oberstar. We are down to about 6 or 7 minutes left on 
the vote. I would invite you to combine your thoughts and give 
us some principles, if you will, for improving service to rural 
communities through public transit, including over the road, 
inner city bus services, transit type activities and your 
thoughts about coordination and consolidation. Give us whatever 
number of points you think would be beneficial. We need to 
merge those into legislative language in the very near future 
as we prepare for the authorization bill next year.
    Thank you, Madam Chair.
    Ms. Hirono. [Presiding.] Thank you, Mr. Chairman. I would 
like to thank all the panel members for your input and ideas. 
And since the Chairman has put out a request to you, I am 
looking forward, along with the Members of the Committee for 
that information from all of you. Thank you very much. This 
hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3276.009
    
    [GRAPHIC] [TIFF OMITTED] T3276.010
    
    [GRAPHIC] [TIFF OMITTED] T3276.011
    
    [GRAPHIC] [TIFF OMITTED] T3276.012
    
    [GRAPHIC] [TIFF OMITTED] T3276.013
    
    [GRAPHIC] [TIFF OMITTED] T3276.014
    
    [GRAPHIC] [TIFF OMITTED] T3276.015
    
    [GRAPHIC] [TIFF OMITTED] T3276.016
    
    [GRAPHIC] [TIFF OMITTED] T3276.017
    
    [GRAPHIC] [TIFF OMITTED] T3276.018
    
    [GRAPHIC] [TIFF OMITTED] T3276.019
    
    [GRAPHIC] [TIFF OMITTED] T3276.020
    
    [GRAPHIC] [TIFF OMITTED] T3276.021
    
    [GRAPHIC] [TIFF OMITTED] T3276.022
    
    [GRAPHIC] [TIFF OMITTED] T3276.023
    
    [GRAPHIC] [TIFF OMITTED] T3276.024
    
    [GRAPHIC] [TIFF OMITTED] T3276.025
    
    [GRAPHIC] [TIFF OMITTED] T3276.026
    
    [GRAPHIC] [TIFF OMITTED] T3276.027
    
    [GRAPHIC] [TIFF OMITTED] T3276.028
    
    [GRAPHIC] [TIFF OMITTED] T3276.029
    
    [GRAPHIC] [TIFF OMITTED] T3276.030
    
    [GRAPHIC] [TIFF OMITTED] T3276.031
    
    [GRAPHIC] [TIFF OMITTED] T3276.032
    
    [GRAPHIC] [TIFF OMITTED] T3276.033
    
    [GRAPHIC] [TIFF OMITTED] T3276.034
    
    [GRAPHIC] [TIFF OMITTED] T3276.035
    
    [GRAPHIC] [TIFF OMITTED] T3276.036
    
    [GRAPHIC] [TIFF OMITTED] T3276.037
    
    [GRAPHIC] [TIFF OMITTED] T3276.038
    
    [GRAPHIC] [TIFF OMITTED] T3276.039
    
    [GRAPHIC] [TIFF OMITTED] T3276.040
    
    [GRAPHIC] [TIFF OMITTED] T3276.041
    
    [GRAPHIC] [TIFF OMITTED] T3276.042
    
    [GRAPHIC] [TIFF OMITTED] T3276.043
    
    [GRAPHIC] [TIFF OMITTED] T3276.044
    
    [GRAPHIC] [TIFF OMITTED] T3276.045
    
    [GRAPHIC] [TIFF OMITTED] T3276.046
    
    [GRAPHIC] [TIFF OMITTED] T3276.047
    
    [GRAPHIC] [TIFF OMITTED] T3276.048
    
    [GRAPHIC] [TIFF OMITTED] T3276.049
    
    [GRAPHIC] [TIFF OMITTED] T3276.050
    
    [GRAPHIC] [TIFF OMITTED] T3276.051
    
    [GRAPHIC] [TIFF OMITTED] T3276.052
    
    [GRAPHIC] [TIFF OMITTED] T3276.053
    
    [GRAPHIC] [TIFF OMITTED] T3276.054
    
    [GRAPHIC] [TIFF OMITTED] T3276.055
    
    [GRAPHIC] [TIFF OMITTED] T3276.056
    
    [GRAPHIC] [TIFF OMITTED] T3276.057
    
    [GRAPHIC] [TIFF OMITTED] T3276.058
    
    [GRAPHIC] [TIFF OMITTED] T3276.059
    
    [GRAPHIC] [TIFF OMITTED] T3276.060
    
    [GRAPHIC] [TIFF OMITTED] T3276.061
    
    [GRAPHIC] [TIFF OMITTED] T3276.062
    
    [GRAPHIC] [TIFF OMITTED] T3276.063
    
    [GRAPHIC] [TIFF OMITTED] T3276.064
    
    [GRAPHIC] [TIFF OMITTED] T3276.065
    
    [GRAPHIC] [TIFF OMITTED] T3276.066
    
    [GRAPHIC] [TIFF OMITTED] T3276.067
    
    [GRAPHIC] [TIFF OMITTED] T3276.068
    
    [GRAPHIC] [TIFF OMITTED] T3276.069
    
    [GRAPHIC] [TIFF OMITTED] T3276.070
    
    [GRAPHIC] [TIFF OMITTED] T3276.071
    
    [GRAPHIC] [TIFF OMITTED] T3276.072
    
    [GRAPHIC] [TIFF OMITTED] T3276.073
    
    [GRAPHIC] [TIFF OMITTED] T3276.074
    
    [GRAPHIC] [TIFF OMITTED] T3276.075
    
    [GRAPHIC] [TIFF OMITTED] T3276.076
    
    [GRAPHIC] [TIFF OMITTED] T3276.077
    
    [GRAPHIC] [TIFF OMITTED] T3276.078
    
    [GRAPHIC] [TIFF OMITTED] T3276.079
    
    [GRAPHIC] [TIFF OMITTED] T3276.080
    
    [GRAPHIC] [TIFF OMITTED] T3276.081
    
                                    

</pre></body></html>
